No:

IN THE
SUPREME COURT OF THE UNITED STATES

JUNIOR JEAN BAPTISTE,
Petitioner,
Ws.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING

Petitioner, JUNIOR JEAN BAPTISTE, through undersigned counsel and pursuant to SUP.
Cr. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari filed in the
above-styled matter was placed in the U.S. mail in a prepaid first class envelope, addressed to the
Clerk of the Supreme Court of the United States, on the 6th day of July, 2021, which is the date that

the petition for writ of certiorari is due.

Ent Mil
RICHARD C. KLUGH, ESQ.
Counsel for Petitioner
Courthouse Center
40 N.W. 3rd Street, PH 1
Miami, Florida 33128
Tel. No. (305) 536-1191

Miami, Florida
July 2021
